The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436




January 31, 2014                                                             IG-MM-002
                                                                             OIG-MR-14-10


Chairman Williamson:

The purpose of this Management Report is to transmit the results of the Office of Inspector
General’s risk assessment of the Commission’s charge card program, as required by the
Government Charge Card Abuse Prevention Act of 2012.

We reviewed the results of work conducted during our evaluation of the Commission’s purchase
card program in 2013 and performed an analysis of the charge card compliance analysis that was
completed by the Office of the Chief Financial Officer.

Our assessment determined the Commission’s risk of illegal, improper, or erroneous purchases is
low. We did identify one area, related to travel card transactions for individually billed accounts,
where the Commission should improve their control activities.

An individually billed account is a method of paying for official travel and transportation-related
expenses to a government contractor-issued charge card. The contractor bank bills the
cardholder directly, and the cardholder is responsible for payment. Since these transactions take
place outside of the financial system, the Commission would be unaware of misuse unless
alerted by the contractor bank. The Commission does not have a process in place to review or
monitor individual travel transactions.

Recommendation: Develop a process to periodically review individual travel card transactions
to identify improper, erroneous, or illegal purchases.

Sincerely,




Philip M. Heneghan
Inspector General
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
